HHS/OIG, Audit - "Review of Training Costs for Title IV-E Foster Care and Adoption Assistance Programs in Rhode Island for State Fiscal Years 2003 Through 2005," (A-01-06-02509)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Training Costs for
Title IV-E Foster Care and Adoption Assistance Programs in Rhode Island for
State Fiscal Years 2003 Through 2005," (A-01-06-02509)
July 9, 2007
Complete Text of Report is available in PDF format (568 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine
whether the Rhode Island Department Children, Youth, and Families (the State
agency) properly claimed Federal reimbursement at the enhanced rate for Title
IV-E training costs from July 1, 2002, through June 30, 2005.  The State agency
properly claimed training costs totaling $3.2 million ($2.4 million Federal
share) for Federal reimbursement at the enhanced 75-percent rate under Title
IV-E.  However, the State agency overstated the Federal share of foster care and
adoption assistance training costs by $238,441 by claiming training expenses at
the enhanced rate that were only allowable at the 50-percent rate.  We
recommended that the State agency make a financial adjustment of $238,441 on its
next Quarterly Report of Expenditures, establish procedures to ensure that only
qualified training expenses are claimed at the enhanced rate, and review
training costs claimed for Federal reimbursement after the audit period to
ensure compliance with Federal requirements. The State agency agreed with our
recommendations.